United States Department of Agriculture
Office of Inspector General




Analysis of Florida's Supplemental
Nutrition Assistance Program (SNAP)
Eligibility Data




                                          Audit Report 27002-0002-13
                                          November 2011
                        United States Department of Agriculture
                                Office of Inspector General
                                 Washington, D.C. 20250




DATE:          November 29, 2011

AUDIT
NUMBER:        27002-0002-13

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Acting Director
               Office of Internal Control, Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Analysis of Florida’s Supplemental Nutrition Assistance Program (SNAP)
               Eligibility Data


The report presents the results of our audit of Florida’s Supplemental Nutrition Assistance
Program Eligibility Data. The response from the Food and Nutrition Service (FNS) is
included in its entirety in an exhibit in this report.

We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Recommendation Summary....................................................................................2
Background and Objectives ....................................................................................3
Background...............................................................................................................3
Objectives ..................................................................................................................4
Section 1: SNAP Eligibility Oversight Needs Strengthening..............................5
   Finding 1: FNS Should Strengthen its Oversight of DCF’s Eligibility
   Review ....................................................................................................................5
         Recommendation 1 ........................................................................................8
         Recommendation 2 ........................................................................................8
Scope and Methodology...........................................................................................9
Abbreviations .........................................................................................................10
Exhibit A: Summary of Monetary Results ..........................................................11
Agency’s Response .................................................................................................13
Analysis of Florida’s Supplemental Nutrition Assistance
Program (SNAP) Eligibility Data (27002-0002-13)

Executive Summary

The Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program (SNAP),
formerly known as the Food Stamp Program, provides monthly food assistance and nutrition for
the health and wellbeing of more than 40 million low-income individuals.1 The Office of
Inspector General (OIG) initiated this audit in December 2010 to analyze the Florida SNAP
participant database to identify anomalies that may result in ineligible participants receiving
SNAP benefits.

Of the 2,603,185 average monthly recipients in Florida, as of December 2010, we found 2,689
(.1 percent) recipients who were deceased, had invalid Social Security numbers (SSNs), were
receiving duplicate benefits in Florida, were receiving benefits simultaneously with one of four
nearby States, or were listed in the Electronic Disqualified Recipient System (eDRS)2. We also
found individuals who exceeded asset limitations but received SNAP benefits because they were
considered “categorically eligible”.3 The Department of Children and Families (DCF) is
responsible for administering SNAP and explained that these issues occurred because
participation in SNAP has grown by 111 percent since 2007, which officials stated has caused
significant backlogs in case processing. Additionally, DCF does not perform some edit checks
that would help ensure that the participant information that is entered is accurate. Also, though
DCF uses the Public Assistance Reporting Information System (PARIS) database to check for
duplicate enrollment across States, this system does not include all participants nationwide
because FNS does not require States to participate in PARIS and does not require States to check
for dual participation.

In all, the 2,689 participants that should have been researched and possibly removed from
program participation cause us to question approximately $380,225 in benefits per month, based
on the average monthly amount a recipient receives in Florida. 4 While the number of errors
identified is relatively low, we found areas for potential improvement that would strengthen
fraud detection and prevention efforts in Florida. With a 111 percent increase in participation



1
  For FY 2010.
2
  FNS maintains eDRS, which is a national internet-based application that tracks SNAP participants that have been
found guilty of intentional program violations and have been disqualified from the program.
3
  The “categorically eligible” program, allows otherwise ineligible participants to continue in the SNAP program,
although they exceed asset and income limits based on FNS policy, because they qualify for other federal programs such
as Temporary Assistance for Needy Families (TANF).
4
  Potential improper payments are based upon the average amount a recipient receives in Florida each month
($141.40). We were not able to determine the actual amount because payments are calculated by household, not
individual; therefore, even if one participant is ineligible—such as a deceased participant—it is possible that other
members of the household are eligible to receive benefits at a lower amount. Additionally, because Florida does not
keep record of participants’ start dates in their eligibility system, it is uncertain how long these individuals had been
receiving benefits, and, therefore, difficult to determine total payments made to that individual.

                                                                               AUDIT REPORT 27002-0002-13              1
since 2007, SNAP is a rapidly growing program in Florida. If DCF does not take measures to
increase preventative and fraud detection efforts, it risks making continued payments to
individuals who are not eligible for SNAP funds.

Recommendation Summary
FNS should provide guidance to ensure that DCF is utilizing regular edit checks to verify the
information in participant databases is accurate. FNS also needs to require DCF to review the
2,689 individuals identified in this report and determine if those participants have received
improper payments.

Agency Response
FNS concurs with our recommendations and is actively engaged in a dialogue with regional
offices and with States regarding policies and technical assistance tools which can strengthen
integrity to an even greater extent. FNS has final rules in process that will codify the
requirement for the SSA death match, the prisoner match, and eDRS matching with expected
publication in early 2012. FNS also issued a policy memo on November 15, 2011, reminding
States of the death and prisoner matching requirement. The State has committed to following up
on the 2,689 individuals identified and estimates completion by September 30, 2012.

OIG Position

OIG concurs with FNS’ response that a policy be issued to codify the States’ requirement to use
SSA death match, the prisoner match, and eDRS matching to identify participants improperly
receiving SNAP benefits. OIG concurs with Florida’s response concerning follow-up on the
2,689 individuals identified in the report to determine if they received improper payments. We
reached management decision on the report’s two recommendations.




2    AUDIT REPORT 27002-0002-13
Background and Objectives
Background

FNS’ SNAP program, formerly known as the Food Stamp Program, provides monthly food
assistance and nutrition for the health and wellbeing of more than 40 million low-income
individuals. Florida had 2,603,185 individuals—or 14 percent of the State’s population—enrolled
in SNAP, as of December 2010. Since 2007, the program has grown by 111 percent. While FNS
pays the full cost of recipient benefits, both FNS and the States share the program’s administrative
costs.

For enrollment and eligibility procedures, SNAP regulations at the Federal level specify minimum
guidelines, such as maximum income requirements, to be enforced by the State agencies; however,
these regulations did not establish a standardized system of internal control at the State level. FNS’
policy is to allow State agencies the flexibility to establish control systems that meet the individual
needs of each State. For example, Federal regulations allow State agencies to determine whether or
not they will interview recipients face-to-face or on the telephone prior to granting benefits. In
Florida, like in most States, DCF performs telephone interviews for most applicants, as opposed to
face-to-face interviews. Each State agency owns and maintains its own eligibility system—
including software and databases—which varies from State to State.

In Florida, applicants submit documents to prove citizenship, residency, income, and expenses. To
continue in the program, participants are required to verify their need for SNAP benefits during
an interim review every 6 to 12 months, depending on the applicants’ status.5 Participants in
SNAP apply and are approved or denied by DCF based on pre-established eligibility requirements.

State agencies also have the primary responsibility for monitoring recipients’ compliance with
program requirements and for detecting and investigating cases of alleged intentional program
violation.6 Once applicants have submitted information, either during enrollment or the interim
review process, DCF performs automated data checks to validate selected information submitted,
including Social Security Numbers (SSN). State agencies are required to establish a system to
ensure that certain prisoners do not receive benefits.7 State agencies must also check recipient data




5
  Participants who are aged or disabled and receive Supplemental Security Income only need to verify their
information every 12 months. All other participants must recertify every 6 months.
6
  An intentional program violation is defined as any act violating the Food Stamp Act, the Food Stamp Program
regulations, or any State statute for the purpose of using, presenting, transferring, acquiring, receiving, possessing,
or trafficking SNAP benefits. The definition includes it is any act that constitutes making a false or misleading
statement or concealing or withholding facts.
7
  PL 105-33, Balanced Budget Act of 1997, Section 1003 (a) (1), August 1997; and PL 114-246, the Food and
Nutrition Act of 2008, Section 11(r), October 2008.

                                                                               AUDIT REPORT 27002-0002-13                 3
against a national Social Security Administration (SSA) database, such as the State Verification
Exchange System (SVES),8 to ensure that deceased recipients do not receive benefits.9 In addition
DCF, like most other agencies who administer SNAP, utilizes additional national and State database
systems to verify income and employment information provided by applicants.

Objectives

OIG initiated this audit to analyze the Florida SNAP participant database to identify anomalies
that may result in ineligible participants receiving SNAP benefits.




8
  Provided at no cost to State agencies, SVES matches against several national databases to check for death and SSN
verification for every submitted individual. SSA’s Death Master File also checks SSNs nationwide to search for
deceased individuals.
9
  PL 105-379, An Act to Amend the Food Stamp Act of 1997, Section 1(a), November 1998.

4     AUDIT REPORT 27002-0002-13
Section 1: SNAP Eligibility Oversight Needs Strengthening

Finding 1: FNS Should Strengthen its Oversight of DCF’s Eligibility Review
Of the 2,603,185 average monthly recipients in Florida, as of December 2010, we found 2,689
(.1 percent) recipients who were deceased, had invalid SSNs, were receiving duplicate benefits in
Florida, were receiving benefits simultaneously from one of four nearby States, or were listed in
eDRS. Florida’s DCF is responsible for administering SNAP and stated these issues occurred
because participation in SNAP has grown by 111 percent since 2007, causing significant
backlogs in case processing. Additionally, DCF does not perform some edit checks that would
ensure the participant information is entered accurately. Also, though DCF uses the PARIS
database to check for duplicate enrollment across States, this system does not include all
participants nationwide because FNS does not require States to participate in PARIS and does
not require States to check for dual participation. Not performing these checks increases the risk
of improper payments. In all, the 2,689 participants who should have been researched and
possibly removed from the program continued to receive approximately $380,225 in benefits
each month. We also found 6,970 individuals who exceeded asset limitations but received
SNAP benefits because they were considered “categorically eligible.”

To verify that benefits are not issued to individuals who are deceased, DCF, like all agencies
who administer SNAP, is required to compare the information in the SNAP participant database
with national SSA death information. When we used SSA’s Death Master File to perform this
check ourselves, we found that 807 current Florida SNAP participants’ SSNs were listed in
SSA’s Death Master File.10 Florida’s policy states that this information should be used to
terminate the participant from the program. However, some of these SSNs are erroneous SSNs
in the system that must be corrected. Officials stated that this did not occur because participation
in the Florida SNAP program has increased by 111 percent since 2007, which has caused
significant backlogs in case processing. However, Florida receives additional funding for
administrative expenses, such as researching resources, and should assist Florida in managing
their backlog. Florida officials stated that they used the additional funds to pay overtime for
their current employees. They have recently issued a memo that will assist staff members in
readily identifying and addressing participants identified in their death matches.

We also found individuals using invalid SSNs. DCF’s procedure is to verify that an applicant’s
SSN is valid when initially applying for SNAP.11 If participants cannot provide a valid SSN at
the time of enrollment, the system assigns a temporary, non-valid SSN of 000-00-0000. If by the
recertification or interim review period (within 6 months or 12 months of enrollment) 12
participants still cannot produce a valid SSN or provide good cause for why they have not



10
   The SSA Death Master File is used by leading government, financial, investigative, credit reporting, and medical
research organizations as well as other industries to verify individuals who have died.
11
   DCF manual 1410.0200, Social Security Number (FS).
12
   Participants who are aged or disabled and receive supplemental security income only need to verify their
information every 12 months and are certified for a 24 month period. All other participants must recertify
every 6 months.

                                                                           AUDIT REPORT 27002-0002-13             5
obtained a valid SSN, they should be terminated from the program.13 However, we found that
835 participants had SSNs that did not match the format of the SSA scheme for valid SSNs and
2,657 were enrolled in the program with a SSN of 000-00-0000 for over 6 months. Of this
number, 240 remained in the program for at least a year.14 This occurred because DCF does not
currently check for input errors caused when personnel enter the number into the system, or for
SSNs following invalid schemes, such as those starting with “000” that have been present for
more than 6 or 12 months in the system. DCF officials stated that the reasons for the invalid
SSNs included data entry errors and incorrect SSNs reported by the clients. DCF said that SSNs
of 000-00-0000 were still in the system because the SSN had been provided on the application
for assistance but not updated in the eligibility system when the SSN was provided by the
participant.

We also found four individuals receiving SNAP benefits simultaneously under two separate
accounts. DCF currently has an edit check to prevent entering the same SSN in the system, and
DCF has been unable to determine how this check was avoided in these cases. When we notified
the agency of the four duplicate accounts, they took action to close the duplicate accounts where
necessary and recover duplicated benefits. Because this type of error is rare and does not pose a
great risk, we are not making a recommendation at this time.

DCF also had multiple instances of dual enrollment with the States of Alabama, Louisiana,
Texas, and Mississippi. Each participant should only receive SNAP benefits from the State
where the participant resides. To safeguard against duplicate enrollment and potential fraud,
Florida’s SNAP application form asks applicants if they are receiving, or have received, benefits
from another State. We compared SNAP enrollment between Florida and these nearby States
and found that 883 individuals enrolled in the Florida SNAP program were simultaneously
enrolled in 1 of the nearby States for at least 3 consecutive months. Of these, 107 were enrolled
in both States for 6 months or longer. The duration of time could potentially be longer, but
because not all States store start dates in their eligibility system, we were unable to determine
how long participants overlapped in some States. In some cases, participation in multiple States
occurred because FNS does not have a nationwide database of all SNAP participants for DCF to
check. While DCF does utilize PARIS—an optional, multi-State database that stores social
welfare program participant information—not all States input their SNAP participant information
in PARIS. As a result, PARIS’ information is incomplete. For example, 370 of the dual
participants were in the State of Alabama, which does not participate in PARIS. With mandatory
SNAP participation in PARIS or a similar system, DCF—as well as other State agencies—would
have access to a reliable, nationwide database, which it could then utilize in its fraud detection
efforts. In other cases, participation in multiple States occurred because DCF was not notified
when the participant moved out of Florida, and the receiving State did not perform the proper
checks in PARIS to identify this dual participation.




13
  DCF manual 1410.0200, Social Security Number (FS).
14
  Because the State of Florida does not keep record of participants’ start dates in their eligibility system, we were
unable to determine how long the 240 individuals had been in the program.

6      AUDIT REPORT 27002-0002-13
We also found 6,970 individuals who exceeded the asset limitations of the SNAP program.
According to 7 CFR 273.8(a)(b), the maximum allowable resources, including both liquid and
non-liquid assets, shall not exceed $3,000 for all members of the household.15 Of the 6,970
individuals, over 50 had assets that exceeded $200,000. DCF officials stated that all of these fell
under the “categorically eligible” program, which allows otherwise ineligible participants to
continue in the SNAP program, although they exceed asset limits.16 DCF officials also stated that
some of these could be data entry errors that need to be researched.

Additionally, we found 160 active participants that were previously disqualified from receiving
SNAP benefits. FNS maintains eDRS, which is a national system that tracks SNAP participants
who have been disqualified from the program due to intentional program violations. States are
required by FNS to input individuals who have been disqualified, but they are not required to
check this system before allowing a person into the program. DCF officials stated these
individuals were not detected because their alert system that passes this information to applicant
processors was not working in half of the cases and did not contain complete information in the
other half of the cases. Currently, processors do not access eDRS to obtain this information
directly. DCF is taking action to recover overpayments to these individuals. We recommend
that FNS require States to verify that individuals have not been disqualified from the SNAP
program prior to allowing them into the program.

For many of the anomalies we identified above, we could not calculate the amount of the
improper payments because Florida does not store the participants’ start dates in their eligibility
system, even though FNS responded that states are required to keep the initial certification date
and the most recent certification date. Florida only kept the most recent certification date. We
found that this date is important to determine the amount of any improper payments and to
provide statistics on the history of SNAP participation.

In all, the 2,689 participants that should have been removed cause us to question approximately
$380,225 in benefits per month, based on the average benefit amount a recipient receives in
Florida. While the number of errors identified is relatively low, we found areas for potential
improvement that would strengthen fraud detection and prevention efforts in the State. We have
forwarded these participants to DCF for further research and investigation. We acknowledge
that DCF is in the process of researching and resolving several of these issues and believe that by
utilizing input edit checks and a process to check eDRS for disqualifications, DCF can improve
its fraud detection and prevention. In addition, if FNS mandates that all States participate in
PARIS or a similar database, individuals simultaneously enrolled in two States would be
detected.




15
   Certain resources are not counted, such as a home and lot. Special rules are used to determine the resource value
of vehicles owned by household members.
16
   The “categorically eligible” program, allows otherwise ineligible participants to continue in the SNAP program,
although they exceed asset and income limits based on FNS policy, because they qualify for other federal programs such
as TANF.

                                                                             AUDIT REPORT 27002-0002-13             7
Recommendation 1
Ensure that DCF regularly performs checks to ensure information in participant databases is
accurate and complete.

Agency Response
FNS is developing final rules that will codify the requirement for the SSA death match, the
prisoner match, and eDRS matching. The final rule will require all applicants to be checked
against the eDRS system at the time of their application. This rule is expected to be published in
early 2012. FNS issued a policy memo on November 15, 2011, reminding States of the death
and prisoner matching requirement.

OIG Position
OIG concurs with FNS’ response that a policy be issued to codify the States’ requirement to use
the SSA death match, the prisoner match, and eDRS matching to identify participants improperly
receiving SNAP benefits. We reached management decision on the recommendation.

Recommendation 2
Require DCF to review the 2,689 individuals identified in this report and determine if
participants have received improper payments. Recover improper payments as appropriate.

Agency Response
FNS agrees with this recommendation and estimates completion by September 30, 2012.

OIG Position
OIG concurs with Florida’s response concerning follow-up on the 2,689 individuals identified in
the report and will determine if they received improper payments. We reached management
decision on the recommendation.




8    AUDIT REPORT 27002-0002-13
Scope and Methodology
We analyzed the participants in the Florida SNAP program for the timeframe of January 2010
through December 2010. Florida was selected because it is one of the largest States in terms of
SNAP participation. We selected the timeframe of January 2010 to December 2010 because, at
the time of our audit, it was the latest information available.

We obtained the SSA’s Death Master File and extracts of key SNAP participant data from
Florida State officials. We also obtained SNAP participant data from the four nearby States of
Alabama, Mississippi, Louisiana, and Texas. We analyzed this data, using Audit Command
Language. Our tests were developed to identify anomalies that may result in ineligible
participants receiving SNAP benefits and to determine whether FNS provided adequate program
guidance and oversight. Our tests determined whether

   ·   SSNs of deceased individuals were found in active SNAP cases,
   ·   Invalid SSNs were used,
   ·   Duplicate payments were received, and
   ·   Recipients were receiving benefits simultaneously from nearby States.

As appropriate, the anomalies identified were verified by Florida State officials.

We reviewed public laws and FNS regulations, policies, procedures, and other controls
governing the administration of SNAP to ensure DCF complied with Federal guidelines. We
evaluated reports that resulted from reviews relating to SNAP, the Federal Manager’s Financial
Integrity Report for fiscal year 2011, and Government Accountability Office reports. We
interviewed Florida State officials and obtained supporting documentation.

We conducted our audit work with DCF in Tallahassee, Florida, and FNS’ national office in
Alexandria, Virginia. We also coordinated our audit with FNS’ Southeast regional office in
Atlanta, Georgia. Our audit period was December 2010 through September 2011.

We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                                 AUDIT REPORT 27002-0002-13       9
Abbreviations
DCF............................. Department of Children and Families
D-SNAP ...................... Disaster Supplemental Nutrition Assistance Program
eDRS ........................... Electronic Disqualified Recipient System
FNS ............................. Food and Nutrition Service
FY ............................... Fiscal Year
GA............................... General Assistance
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
PARIS ......................... Public Assistance Reporting Information System
PL................................ Public Law
SSA ............................. Social Security Administration
SSI............................... Supplemental Security Income
SNAP .......................... Supplemental Nutrition Assistance Program
SSN ............................. Social Security Number
SVES........................... State Verification Exchange System
TANF .......................... Temporary Assistance for Needy Families
USDA.......................... Department of Agriculture




10     AUDIT REPORT 27002-0002-13
Exhibit A: Summary of Monetary Results

FINDING      RECOMMENDATION
                                        DESCRIPTION          AMOUNT              CATEGORY
NUMBER           NUMBER

                                       Clients identified     $114,110
                                                                              Questioned Cost,
    1                   2                on the Death        average per
                                                                           Recovery Recommended
                                          Master File          month

                                            Clients
                                        participating in      $124,856
                                                                              Questioned Cost,
    1                   2               SNAP in both         average per   Recovery Recommended
                                       FL and AL, MS,          month
                                          TX, or LA

                                       Clients receiving        $566
                                                                              Questioned Cost,
    1                   2                  duplicate         average per   Recovery Recommended
                                        benefits in FL         month

                                                              $118,069
                                                                              Questioned Cost,
    1                   2                Invalid SSNs        average per   Recovery Recommended
                                                               month

                                                              $22,624
                                        Listed in eDRS                        Questioned Cost,
    1                   2                                    average per
                                            system                         Recovery Recommended
                                                               month

 TOTAL                                                      $380,225 average per month


The table above represents the $380,225 in average questioned costs per month, recovery
recommended.




                                                             AUDIT REPORT 27002-0002-13   11
12   AUDIT REPORT 27002-0002-13
Agency’s Response




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27002-0002-13   13
United States
Department of    DATE:          November 23, 2011
Agriculture
                 AUDIT
Food and
Nutrition        NUMBER:        27002-02-13
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712
                 FROM:          /s/ <Jeffrey J. Tribiano> (for): Audrey Rowe
Alexandria, VA
22302-1500                      Administrator
                                Food and Nutrition Service

                 SUBJECT:      Analysis of Florida’s Supplemental Nutrition Assistance Program
                               (SNAP) Eligibility Data


                 This letter responds to the official draft report for audit report number 27002-02-13,
                 Analysis of Florida’s Supplemental Nutrition Assistance Program (SNAP) Eligibility
                 Data. Specifically, the Food and Nutrition Service (FNS) is responding to the two
                 recommendations within the report.

                 OIG Recommendation 1:

                 Ensure that DCF regularly performs checks to ensure information in participant
                 databases is accurate and complete.

                 Food and Nutrition Service Response:

                 FNS takes program integrity very seriously. Any errors are of concern; however, FNS
                 notes that the errors found in this report constitute an extremely small portion of the
                 Florida caseload (0.1 percent), suggesting that while current processes can always be
                 improved, they are, in fact, working. Pursuant to the critical importance of integrity to
                 ensure that people in need receive nutrition assistance to which they are entitled, FNS
                 is actively engaged in a dialogue with States regarding policies and technical assistance
                 tools which can strengthen integrity to an even greater extent.

                 FNS concurs with this recommendation and already has a number of activities in place
                 that will address the situations found in this report. FNS is developing final rules that
                 will codify the requirement for the SSA death match, the prisoner match, and eDRS
                 matching. The final rule will require all applicants to be checked against the eDRS
                 system at the time of their application. This rule is expected to be published in early
                 2012. FNS issued a policy memo on November 15, 2011, reminding States of the
                 requirement for death and prisoner matching.
                                                                                   P age |2




In addition, FNS will soon award a grant through the OMB Partnership Fund for Program
Integrity that will address the prevention of duplicate participation. This grant will fund
development of a pilot clearinghouse database with information from up to six States in
the Southeast and Southwest for detecting duplicate participation in SNAP and disaster
SNAP (D-SNAP) across State boundaries. Florida, Alabama, Louisiana, Georgia, and
Mississippi are part of the coalition of States that will develop this interstate
clearinghouse.

FNS disagrees with the report statement that FNS does not require States to check for
duplicate participation. Per SNAP regulations at 7 CFR 272.4(e)(1), each State agency
shall establish a system to assure that no individual participates more than once in a
month, in more than one jurisdiction, or in more than one household within the State.
FNS further encourages States to have processes in place to check data with neighboring
States to prevent duplicate participation across State lines. The Public Assistance
Reporting Information System (PARIS) is available to States as an additional tool to
identify interstate duplicate participation but it is not mandatory for States to use PARIS.
Some States have expressed concerns that the information in PARIS is not timely.

The report also incorrectly states that categorical eligibility allows otherwise ineligible
participants to receive SNAP, although they exceed asset and income limits. A
household is categorically eligible for SNAP if it receives Supplemental Security Income
(SSI), general assistance (GA), Temporary Assistance for Needy Families (TANF)
assistance or non-cash benefits or services. Categorically eligible households must meet
the income and asset limits from the TANF, GA, or SSI program to be eligible for SNAP.
While categorical eligibility makes a household eligible for SNAP, the household must
still meet all other SNAP eligibility requirements and have a net income that qualifies it
for a benefit.

Completion Date: November 15, 2011

OIG Recommendation 2:

Require DCF to review the 2,689 individuals identified in this report and determine if
participants have received improper payments. Recover improper payments as
appropriate.

Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS would like to take this opportunity to note
some corrections to the report. First, the statement that “Florida receives funding for
administrative expenses, such as researching resources, which correlates to their increase
in participation and should assist Florida in managing their backlog.” is misleading.
Administrative funding does not increase proportionate to caseload growth. If the State
spends more resources to administer SNAP, then FNS reimburses accordingly at the 50
percent rate, but it first requires a State contribution. Second, the report indicates that




                              AN EQUAL OPPORTUNITY EMPLOYER
                                                                                  P age |3




States are not required to record start dates. On the contrary, FNS requires States to
record the date of initial certification and any subsequent dates of recertification.

Estimated Completion Date: September 30, 2012




                              AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer (1)
 Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
